Information on the Washington State Investigation of the BSE-positive Cow
This Office of Inspector General (OIG) investigation concerned the identification
and status of the cow slaughtered in December 2003, at a beef processing
facility in Moses Lake, Washington State, which tested positive for BSE two
weeks later. OIG addressed allegations that the cow was in fact a healthy,
ambulatory cow, rather than a “downer” as described publicly by USDA officials;
and that the USDA Veterinary Medical Officer (VMO), who examined/inspected
the cow, subsequently falsified his inspection records under duress.

Our investigation found no instances where USDA personnel knowingly
conveyed false or misleading information, or engaged in intentional misconduct.
OIG discovered no evidence that USDA personnel on site at the facility falsified
any records pertaining to the condition of the BSE cow at the time of its
inspection.

While it was reported to our agents that the cow was ambulatory at the time it
was loaded for shipping to the slaughter house, the VMO on-site who examined
the cow found that it was non-ambulatory at the time it was presented for ante-
mortem inspection. The plant owner also acknowledged that the cow was non-
ambulatory when it was presented to the VMO for inspection. Sworn statements
provided by others who saw the index cow that day did not contradict this
evidence and contained no claims that the BSE-positive cow was ever
ambulatory in the presence of the FSIS VMO. The cow was sent to the plant, by
its owners, due to its existing injuries. Additional statements indicated the cow
preferred to lie down but would rise if aggressively stimulated.

Finally, we investigated the allegation that the BSE cow was a "white cow." The
trace-back evidence established by Canadian and USDA officials demonstrated
the BSE-positive cow had a black and white hide and was a different cow from
the "white cow" mentioned in the allegations.

For further reference, see Statement of Phyllis K. Fong, Inspector General, "A
Review of the USDA's Expanded BSE Cattle Surveillance Plan," presented to a
July 14, 2004, joint hearing of the House Government Reform and House
Agriculture Committees.
